Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   TRACEABILITY IN THE FOOD
        SUPPLY CHAIN




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                     OEI-02-06-00210
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
ΔE   E X E C U T I V ES U SM UM MA M
     X E C U T I V E
                                     A R Y
                                   R Y



                   OBJECTIVES
                   1. To assess the traceability of selected food products.

                   2. To determine the extent to which selected food facilities maintain
                      information required by the Food and Drug Administration (FDA) in
                      a food emergency.


                   BACKGROUND
                   Beginning in 2005, FDA required certain food facilities to maintain
                   records identifying the sources, recipients, and transporters of food
                   products. The purpose of these records is to allow FDA to trace an
                   article of food through each stage of the food supply chain—from a retail
                   shelf back to a farm—if FDA has a reasonable belief that a food product
                   is adulterated and presents a serious health threat.

                   Traceability is the ability to follow the movement of a food product
                   through the stages of production, processing, and distribution.
                   Traceability includes both traceback and trace forward. Traceback is
                   the ability to trace a food product from the retail shelf back to the farm.
                   Conversely, trace forward is the ability to trace a food product from the
                   farm forward to the retail shelf. Traceability is often needed to identify
                   the sources of food contamination and the recipients of contaminated
                   food in product recalls and seizures. This study refers to such a
                   situation as a “food emergency.”

                   This study is based on two primary data sources: (1) a traceability
                   exercise of 40 selected food products and (2) structured interviews with
                   the managers at the food facilities that handled the selected food
                   products. For the traceability exercise, we purchased 40 food products
                   from different retail stores and attempted to trace them through each
                   stage of the food supply chain back to the farm(s) or the border. We
                   asked the facilities that handled the food product for information about
                   their sources, recipients, and transporters, which we used in an effort to
                   trace the product.




 OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                     i
E X E C U T I V E                 S U          M M A R Y



                   FINDINGS
                   We were able to trace 5 of the 40 products through each stage of the
                   food supply chain; for most of the other products, we could identify
                   the facilities that likely handled them. Not all facilities are required
                   to maintain lot-specific information in their records, and those that are
                   required to maintain lot-specific information are required to maintain it
                   only if it exists. As a result, we were able to trace five of the specific
                   products through each stage of the food supply chain. The facilities that
                   handled each of these products were able to provide information about
                   the specific product we purchased or were able to link that product to
                   lot-specific information in their records.

                   For 31 of the 40 products, we were able to identify the facilities that
                   likely handled the products. Most facilities that handled these products
                   did not maintain lot-specific information in their records and could only
                   estimate a range of deliveries (from one or more facilities) that may
                   have included the product we purchased. As a result, we were not able
                   to trace these specific products through each stage of the food supply
                   chain. In addition, these estimates may have included more facilities
                   than those that actually handled the product or may not have included
                   all of the facilities that handled the product. For example, for one
                   product—a bag of flour—the storage facility did not know the exact
                   farms that contributed to the product and, therefore, had to give us
                   information about every farm that provided wheat during the previous
                   harvest season.

                   For the remaining four products, we could not even identify the facilities
                   that likely handled them. In these cases, at least one facility in the food
                   supply chain failed to provide any information about the potential
                   sources of the products.
                   Several factors prevented us from tracing the specific products
                   through the food supply chain. Several factors limited our ability to
                   trace the specific food products through each stage of the food supply
                   chain. These factors included: (1) processors, packers, and
                   manufacturers not always maintaining lot-specific information, as
                   required; (2) other types of facilities not maintaining lot-specific
                   information because it is not required; (3) retailers receiving products
                   not labeled with lot-specific information; and (4) the mixing of products
                   from a large number of farms. These factors also affect the speed with
                   which FDA can trace specific food products through the food supply
                   chain.

 OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                   ii
E X E C U T I V E                   S U          M M A R Y


                  Fifty-nine percent of the food facilities did not meet FDA’s
                  requirements to maintain records about their sources, recipients,
                  and transporters. Fifty-nine percent (70 of 118) of the food facilities in
                  our traceability exercise did not provide all of the required contact
                  information about their sources, recipients, and transporters. Twenty
                  percent did not provide all of the required information about their
                  sources, 52 percent did not provide all of the required information about
                  their recipients, and 46 percent did not provide all of the required
                  information about their transporters.
                  Facilities could not provide all required contact information for several
                  reasons. In some cases, managers had to look through large numbers of
                  records—some of them paper based—for contact information.
                  Additionally, some facilities did not have integrated recordkeeping
                  systems that linked sources and recipients to specific shipments or to
                  transporters, and managers had to search separate systems to obtain
                  the contact information.
                  One-quarter of the food facilities were not aware of FDA’s records
                  requirements; others highlighted practices designed to improve
                  traceability. Twenty-five percent (26 of 104) of the managers who
                  responded to our questions were not aware of FDA’s records
                  requirements. Specifically, 50 percent of the managers at retail facilities
                  were not aware of FDA’s records requirements, compared to 21 percent of
                  the managers at distributor, wholesale, and storage facilities and
                  13 percent of the managers at processing, packing, and manufacturing
                  facilities.
                  Over half of the managers (43 of 78) who were aware of the FDA records
                  requirements reported making changes to their recordkeeping practices
                  to meet these requirements. These changes included switching from
                  paper-based to electronic recordkeeping systems, improving their
                  existing electronic systems, and improving their facilities’ ability to
                  maintain lot-specific information.


                  RECOMMENDATIONS
                  To address the findings in this report, we recommend that FDA:

                  Seek statutory authority, if necessary, to strengthen existing records
                  requirements regarding lot-specific information. FDA should seek
                  statutory authority, if necessary, to require all processors, packers, and
                  manufacturers to create and maintain lot-specific information for food
                  products. FDA should also extend the requirements regarding

OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                    iii
E X E C U T I V E                 S U          M M A R Y


                   lot-specific information to other types of facilities, such as distributors,
                   storage facilities, and retailers, in order to further strengthen the
                   traceability of food products.

                   Consider seeking additional statutory authority to improve
                   traceability. FDA should consider seeking additional statutory
                   authority requiring food facilities to further strengthen the traceability
                   of food products.

                   FDA should consider a variety of different approaches, such as
                   expanding current requirements stipulating that facilities maintain
                   information only for their immediate sources, recipients, and
                   transporters. FDA may instead require each facility that handles a food
                   product to maintain records about every facility or farm that handled
                   the product, along with the relevant lot-specific information. This may
                   allow FDA to more quickly and accurately trace food products during a
                   food emergency. In addition, FDA should consider requiring facilities to
                   use certain information technologies to help facilitate recordkeeping,
                   such as interoperable recordkeeping systems. These interoperable
                   systems, which would allow for information to be exchanged among all
                   facilities in the food supply chain, may also allow FDA to more quickly
                   and accurately trace food products during a food emergency.

                   Work with the food industry to develop additional guidance to
                   strengthen traceability. FDA should work with the food industry to
                   develop additional guidance on traceability. Among other things, this
                   guidance could encourage facilities to assign a point person to be
                   responsible for responding to food emergencies, conduct mock recalls,
                   and contract with independent third-party auditors to monitor
                   recordkeeping systems.

                   Address issues related to mixing raw food products from a large
                   number of farms. FDA should work with the food industry to develop
                   standards for mixing raw food products from a large number of farms.
                   This would address a serious vulnerability in the traceability of the food
                   supply chain.

                   Seek statutory authority to conduct activities to ensure that facilities
                   are complying with its records requirements. FDA should seek
                   statutory authority to request facilities’ records at any time, as opposed
                   to its current authority to request records only when FDA has a
                   reasonable belief that an article of food presents a serious health threat.
                   FDA should use this authority to conduct traceability exercises or other
                   checks on facilities to ensure that they are complying with its records

 OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                      iv
E X E C U T I V E                 S U          M M A R Y


                   requirements. With this added authority, FDA would be able to include
                   a component in its food facility inspections to verify as a matter of
                   course whether facilities are complying with its records requirements.

                   Conduct education and outreach activities to inform the food industry
                   about its records requirements. FDA should develop education
                   activities that focus on appropriate and reliable recordkeeping systems.
                   These activities could include informational meetings, mailings, and
                   other initiatives. FDA should use these efforts to clearly explain the
                   specific types of information that must be maintained, such as
                   transporter contact information. FDA should also target outreach
                   efforts to facilities that have less familiarity with the records
                   requirements, namely retailers, distributors, wholesalers, and storage
                   facilities.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   FDA stated that it will consider our recommendations regarding
                   seeking enhanced statutory authority, and it described its efforts in
                   response to our recommendations to work with the food industry and to
                   conduct education and outreach. FDA did not specifically state whether
                   it concurred with these latter two recommendations.

                   FDA stated that it will consider our three recommendations to seek
                   additional statutory authority to (1) strengthen existing records
                   requirements, (2) improve traceability, and (3) ensure that facilities are
                   complying with its records requirements, as well as our
                   recommendation to address issues relating to mixing raw food products.
                   FDA noted that it continues to work closely with its food safety partners
                   to strengthen its ability to protect Americans from foodborne illness,
                   which includes determining whether additional statutory authority is
                   needed to better protect public health.

                   In response to our recommendation to work with the food industry, FDA
                   stated it is continuing to work with the food industry and other
                   stakeholders to develop additional guidance to strengthen traceability.
                   Finally, in response to our recommendation to conduct education and
                   outreach activities, FDA stated that it will continue to work with
                   industry and trade association groups to communicate the requirements
                   of the rule to stakeholders.




 OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                   v
E X E C U T I V E                 S U          M M A R Y


                   We support FDA’s ongoing efforts to improve the traceability of the food
                   supply and to ensure that it has the tools needed to better protect the
                   public health in the event of a food emergency. We ask that, in its final
                   management decision, FDA more clearly indicate whether it concurs
                   with our recommendations to work with the food industry and to
                   conduct education and outreach.




 OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                 vi
Δ   T A B L E                   O F             C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i



                  INTRODUCTION ........................................... 1



                  FINDINGS ................................................. 9
                            We traced 5 of the 40 products; for most of the other products,
                            we identified facilities that likely handled them. . . . . . . . . . . . . . . 9

                            Several factors prevented us from tracing specific products . . . . . 10

                            Fifty-nine percent of facilities did not meet requirements . . . . . . 12

                            One-quarter of facilities were not aware of requirements. . . . . . . 15



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                            Agency Comments and Office of Inspector General Response. . . . 20




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                            A: The Establishment and Maintenance of Records
                               Regulation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                            B: Selection of Retail Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                            C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29




OEI-02-06-00210         TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                                   ii
Δ   I N T R O D U C T I O N

                  OBJECTIVES
                  1. To assess the traceability of selected food products.

                  2. To determine the extent to which selected food facilities maintain
                     information required by the Food and Drug Administration (FDA) in
                     a food emergency.


                  BACKGROUND
                  Each year, more than 300,000 Americans are hospitalized and 5,000 die
                  after consuming contaminated foods and beverages. 1 In a food
                  emergency, FDA is responsible for finding the source of the
                  contamination and helping to remove the food products from the food
                  supply chain. Recent food contaminations involving peppers, spinach,
                  and peanut butter have demonstrated the importance of FDA’s role and
                  the challenge of quickly finding and removing unsafe food products from
                  retail shelves.

                  Beginning in 2005, FDA required certain food facilities to maintain
                  records on the sources, recipients, and transporters of food products. 2
                  The purpose of these records is to allow FDA to trace an article of food
                  through each stage of the food supply chain—from a retail shelf back to
                  a farm—if FDA has a reasonable belief that a food product is
                  adulterated and presents a serious health threat. 3 This study refers to
                  such a situation as a “food emergency.”

                  This study assesses the traceability of selected food products and
                  determines the extent to which selected food facilities can provide
                  information required by FDA about their sources and recipients. Food
                  traceability is essential to ensuring the safety of our Nation’s food
                  supply and to enabling FDA to identify problems, respond quickly, and
                  protect the public health.
                  Traceability in the Food Supply Chain
                  The food supply chain typically starts on farms and involves many
                  different types of facilities—including processors, packers, distributors,



                  1 Centers for Disease Control and Prevention, “National Center for Infectious Diseases.”
                  Available online at http://www.cdc.gov/ncidod/diseases/food/. Accessed April 16, 2008.
                  2 21 CFR §§ 1.337 and 1.345.
                  3 Federal Food, Drug, and Cosmetic Act, § 414(a), 21 U.S.C. § 350c(a), as amended by the
                  Public Health Security and Bioterrorism Act of 2002, P.L. No. 107-188, §306.



OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                       1
I N T R O D             U C T         I O N

                           transporters, and retail stores—before finally reaching the consumer.
                           Figure 1 below shows an example of a food supply chain.
Figure 1: Example of a food supply chain


   Growing            Storing and           Processing                    Storing and    Distributing           Selling
   and                transporting          and manufac-                  transporting   goods to               goods to
   harvesting         raw                   turing raw                    processed      wholesale and          consumers
   agricultural       commodities           commodities                   and            retail
   products                                                               manufactured   establishments
                                                                          goods



  Source: Based on a graphic from “Terrorist Threats to Food: Guidance for Establishing and Strengthening Prevention and Response
  Systems,” Food Safety Department, World Health Organization, 2002.




                          Traceability is the ability to follow the movement of a food product
                          through the stages of production, processing, and distribution. 4
                          Traceability includes both traceback and trace forward. Traceback is
                          the ability to trace a food product from the retail shelf back to the farm. 5
                          Conversely, trace forward is the ability to trace a food product from the
                          farm to the retail shelf. Traceability is often needed to identify the
                          sources of food contamination and the recipients of contaminated food in
                          product recalls and seizures.
                          FDA and the Bioterrorism Act
                          FDA is responsible for ensuring the safety of almost all food products
                          sold in the United States, with the exception of meat, poultry, and some
                          egg products, which are regulated by the U.S. Department of
                          Agriculture. The Federal Food, Drug, and Cosmetic Act gives FDA the
                          authority to regulate food safety. 6
                           The Public Health Security and Bioterrorism Preparedness and
                           Response Act of 2002 (the Act) is intended to “improve the ability of the
                           United States to prevent, prepare for, and respond to bioterrorism and
                           other public health emergencies” affecting a number of areas, including

                          4 Codex Alimentarius Commission, “Procedural Manual, Seventeenth Edition,” 2007. The
                           Codex Alimentarius Commission was created in 1963 by the Food and Agriculture
                           Organization (FAO) and the World Health Organization (WHO) to develop food standards
                           and guidelines. Available online at: ftp://ftp.fao.org/docrep/fao/010/a1472e/a1472e.pdf.
                           Accessed October 6, 2008. In this study, traceability is defined as the ability to trace a food
                           product through the domestic supply chain, which is different from the ability to trace a
                           food product to its country of origin.
                          5 FDA’s Center for Food Safety and Applied Nutrition, “Guidance for Industry: Guide to
                           Minimize Microbial Food Safety Hazards for Fresh Fruits and Vegetables,” October 1998.
                          6   Federal Food, Drug, and Cosmetic Act, Chapter IV, 21 U.S.C. §§ 341–350d.



 OEI-02-06-00210           TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                                     2
 I N T R O D        U C T          I O N

                  the Nation’s food supply. 7 The Act makes a number of significant
                  amendments to the Federal Food, Drug, and Cosmetic Act. One of these
                  amendments, the Maintenance and Inspection of Records provision,
                  stipulates that FDA promulgate regulations to require persons who
                  “manufacture, process, pack, transport, distribute, receive, hold, or
                  import food” (hereinafter referred to as food facilities) to establish and
                  maintain records. 8 It also allows FDA to inspect those records if there
                  is a reasonable belief that an article of food presents a serious health
                  threat. 9
                  In December 2004, FDA promulgated regulations authorized by the
                  Maintenance and Inspection of Records provision. 10 The regulations
                  require food facilities to maintain records on the sources and recipients
                  of food products. The regulations also require food facilities to maintain
                  records on the transporters of both incoming and outgoing shipments of
                  food products. 11 These records must include contact information
                  (i.e., complete names, addresses, and phone numbers whether domestic
                  or foreign) for all sources, recipients, and transporters. In addition, the
                  records must include the dates, quantities, and a description of the type
                  of food and its packaging. The regulations do not apply to farms or to
                  foreign entities operating outside the United States. 12
                  Food manufacturers, processors, and packers must also record
                  lot-specific information (i.e., a lot number, a code number, or another
                  identifier) to the extent that this information exists. 13 Lot-specific
                  information distinguishes one production batch from another and can be
                  a number printed on the packaging or some other identifier, such as a


                  7 P.L. No. 107-188.
                  8 P.L. No. 107-188, § 306(a) amending § 414(b) of the Federal Food, Drug, and Cosmetic Act,
                  21 U.S.C. § 350c(b). The Federal Food, Drug, and Cosmetic Act at 21 U.S.C. § 321(e) defines
                  a person to include an “individual, partnership, corporation, and association.” This study
                  refers to persons as food facilities.
                  9 Public Law 107-188, § 306(a), (b) amending § 414(a) and § 704(a) of the Federal Food,
                  Drug, and Cosmetic Act, 21 U.S.C. § 350c(a) and § 374(a). The technical standard is a
                  reasonable belief “that an article of food is adulterated and presents a threat of serious
                  adverse health consequences or death to humans or animals.”
                  10 69 Fed. Reg. 71562 (Dec. 9, 2004), corrected 70 Fed. Reg. 8726 (Feb. 23, 2005); codified at
                  21 CFR pt. 1, subpart J.
                  11 The regulations refer to sources as “nontransporter immediate previous sources;”, to
                  recipients as “nontransporter immediate subsequent recipients;”, and to transporters as
                  “transporter immediate previous sources” and “transporter immediate subsequent
                  recipients.”
                  12 21 CFR § 1.327.
                  13 21 CFR § 1.337(a)(4) and § 1.345(a)(4).




OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                         3
I N T R O D        U C T      I O N

                    “best if used by” date. 14 Finally, the records must be available for
                    inspection and copying as soon as possible, but not to exceed 24 hours
                    from the receipt of an official request. 15 See Appendix A for a more
                    detailed description of the records requirements.

                    All food facilities were required to comply with the records
                    maintenance provision by December 2006. Retailers with 10 or fewer
                    full-time-equivalent employees are exempt from the records
                    requirements; however, they are not exempt from the requirement to
                    provide FDA with any records that they maintain, if requested. 16


                    METHODOLOGY
                    Scope
                    This study assesses the traceability of selected food products and
                    determines the extent to which food facilities maintain the required
                    information about their sources, recipients, and transporters. It is
                    based on two primary data sources: (1) a traceability exercise of
                    40 selected food products and (2) structured interviews with the
                    managers at the food facilities that handled the selected food products.
                    This study includes only domestic food facilities.
                    Traceability Exercise
                    We purchased 40 food products from different retail stores and
                    attempted to trace them through each stage of the food supply chain
                    back to the farm(s) or the border. We selected 10 different products for
                    the study in consultation with FDA officials, and purchased these
                    10 food products in each of the following four Metropolitan Statistical
                    Areas (MSA): New York City, Chicago, San Francisco, and Washington,
                    DC. 17 Table 1 lists the food products that we selected. Appendix B
                    provides more detailed information about how we selected the retail
                    facilities and the products in each area.




                    14 The preamble to this rule states that “FDA acknowledges that most firms use lot or code

                    numbers to identify specific batches of their products. However, some may use other
                    technologies such as barcodes. The term ‘other identifier’ is intended to capture any other
                    methods that the food industry may be using to identify specific lots of product.”
                    69 Fed. Reg. 71600.
                    15 21 CFR § 1.361.
                    16 21 CFR § 1.327(f).
                    17 MSAs are areas designated by the Office of Management and Budget that include major
                    cities and the suburban areas surrounding them.



 OEI-02-06-00210    TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                          4
I N T R O D        U C T      I O N


                    Table 1: Selected Food Products
                                                                                              Number of
                       Market Sector                              Food Product
                                                                                          Products Purchased
                                                  Bottled water                                  4
                          Beverage
                                                  Manufactured ice                               4
                                                  Whole milk                                     4
                            Dairy                 Carton of eggs                                 4
                                                  Plain yogurt                                   4
                                                  Milled unbleached flour                        4
                           Grains
                                                  Plain oatmeal                                  4
                                                  Tomatoes, fresh whole                          4
                           Produce                Bag of fresh-cut leaf vegetable                4
                                                  Fruit juice                                    4
                     Total Number of                      Total Types of Food       Total Number of Food Products
                     Market Sectors: 4                       Products: 10                   Purchased: 40



                    For each of the 40 products, we provided the retailer with a description
                    of the food product, including any information available on the
                    packaging. We then requested that the retailer identify the source(s) of
                    the food product and the transporter(s) from which the retailer received
                    the food product. For each source, we specifically requested: (1) the
                    name, address, and phone number of the source and the transporter;
                    (2) the date when the retailer received the product; (3) the quantity of
                    the product that the retailer received; and (4) a description of the
                    product as it was received by the retailer. Note that three retailers did
                    not respond to our request, and in these cases, we repurchased the food
                    products from other retailers. 18
                    To continue the traceability exercise, we then contacted the facility that
                    the retailer identified as the source of the food product. As we did with
                    the retailers, we provided these facilities with a description of the food
                    product and requested that they provide us with product and contact
                    information for the source(s) and transporter(s) of the food product.
                    We continued the process of moving backward through the food supply
                    chain until: (1) we reached the farm(s) at the beginning of the chain, 19

                    18 Because we could not determine whether these retailers had 10 or fewer
                    full-time-equivalent employees and were, therefore, exempt from the records requirements,
                    we did not include them in our study. Instead, we repurchased the food products from other
                    retailers.
                    19 For eight of the food products, the beginning of the food supply chain was a public or
                    private water supply. For the purposes of this report, these sources are referred to as
                    farms.



 OEI-02-06-00210    TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                            5
I N T R O D        U C T      I O N

                    (2) we reached the border, or (3) we ended the exercise because a facility
                    (other than the retailer) did not provide information about its
                    source(s). 20 When we reached the farm(s), we asked them to verify the
                    information given to us by the facility that listed them as a source. We
                    did not ask them to provide us with any additional information, as
                    farms are exempt from the records requirements.

                    In addition, for each facility that was not a retailer, we requested
                    information about the recipient(s) of its food product. Specifically, we
                    requested contact information for all recipient(s) of the food product and
                    the transporter(s) that delivered it. We used this information to
                    determine whether each facility could provide information about its
                    recipients. We did not use this information to trace the product forward
                    through the food supply chain.
                    Analysis of the Traceability Exercise
                    We contacted a total of 220 facilities that handled the 40 selected food
                    products. We analyzed the facilities’ responses to assess the traceability
                    of the 40 selected food products. To conduct this analysis, we
                    categorized the 40 food products into three groups: (1) products that
                    could be traced through each stage of the food supply chain, meaning
                    that every facility that handled the product could provide information
                    that was specific to the product we purchased and that 10 or fewer
                    farms contributed to the lot of food product; 21 (2) products that could not
                    be traced but the facilities that likely handled the products could be
                    identified; and (3) products that could not be traced and the facilities
                    that likely handled the products could not be identified.

                    As noted earlier, not all facilities are required to maintain lot-specific
                    information in their records, and those that are required to maintain
                    lot-specific information are required to maintain the information only if
                    it exists. This may have contributed to facilities not being able to
                    provide information specific to either the product or the lot of product
                    that we purchased.
                    Analysis of the Records Maintenance Requirement
                    Of the 220 facilities we contacted, we included in our analysis
                    118 facilities that were required by FDA to maintain records. As shown

                    20 Note that if a facility identified more than five sources, we randomly selected and

                    contacted only five of those sources.
                    21 For retailers, we considered lot-specific information to mean that there was lot-specific
                    information on the product we purchased or the retailers maintained lot-specific
                    information in their records.



 OEI-02-06-00210    TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                           6
I N T R O D        U C T          I O N

                    in Table 2, we excluded 84 farms because they were exempt from the
                    records requirements. Similarly, we excluded 12 retailers that provided
                    information about their sources but had 10 or fewer full-time-equivalent
                    employees. 22 Finally, we excluded six brokers because brokers were not
                    consistently identified as sources by facilities. 23


                      Table 2: Facilities From Traceability Exercise

                                                                            Total             Number of     Number of
                      Facility Type                                    Number of     Facilities Included      Facilities
                                                                        Facilities           in Analysis   Interviewed
                      Retailers                                                40                    28              21
                      Distributors/ Wholesalers/
                                                                               45                    45              44
                      Storage Facilities

                      Processors/ Packers/
                                                                               45                    45              38
                      Manufacturers

                      Brokers                                                   6                     0               0

                      Farms                                                    84                     0               0
                            Total                                             220                   118             103
                    Source: OIG analysis of food facility responses, 2008.


                    We then determined how many of the 118 facilities were unable to
                    provide the information required by FDA. We considered a facility as
                    having failed to provide the required source information if it did not
                    provide a complete address and phone number for each source that it
                    identified. We used the same criterion to determine whether a facility
                    failed to provide the required recipient and transporter information.
                    Structured Telephone Interviews
                    We conducted structured telephone interviews with managers or senior
                    representatives (hereinafter referred to as managers) at each of the
                    facilities. As shown in Table 2, we were able to contact managers at
                    103 of the 118 facilities, resulting in an 87-percent response rate. Our
                    questions focused on facilities’ recordkeeping practices and the types of


                    22 Retailers with 10 or fewer full-time-equivalent employees are exempt from the records
                    requirements; however, they are not exempt from the requirement to provide FDA with any
                    records that they maintain, if requested. See 21 CFR § 1.327(f). Twelve retailers with 10 or
                    fewer full-time-equivalent employees provided information that we used in the traceability
                    exercise, however, we did not include these 12 retailers in our analysis of the records
                    maintenance requirements.
                    23 A broker is a firm or an individual that is commissioned to negotiate sales of food
                    products on behalf of food facilities. In many cases, brokers are required by FDA to
                    maintain records.



 OEI-02-06-00210    TRACEABILITY    IN THE   F O O D S U P P LY C H A I N                                                  7
I N T R O D        U C T      I O N

                    information they maintained about the selected food products. These
                    interviews provided additional information about the traceability of the
                    food products, as well as about facilities’ experiences in implementing
                    the records requirements. We completed these interviews between
                    April and September 2007.
                    Limitations
                    Although the selected food products reflect a broad range of food types,
                    our results are not generalizable to the entire food supply. In addition,
                    we were not able to verify whether a facility provided a complete list of
                    all of its sources, recipients, or transporters. The statements in this
                    report are therefore based on the sources, recipients, and transporters
                    that the facilities identified.
                    Standards
                    This review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-02-06-00210    TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                   8
Δ    F I N D I N G S

                                                                Not all facilities are required
 We were able to trace 5 of the 40 products through             to maintain lot-specific
each stage of the food supply chain; for most of the            information in their records, and
 other products, we could identify the facilities that          those that are required to
                                 likely handled them            maintain lot-specific information
                                                               are required to maintain it only if
                         it exists. As a result, we were able to trace 5 of the 40 specific
                                   24

                         products through each stage of the food supply chain. For another 31 of
                         the 40 products, we could identify the facilities that likely handled
                         them. For the remaining four products, we could not identify the
                         facilities that likely handled them.
                         We could trace 5 of the 40 products through each stage of the food supply
                         chain
                         We were able to trace five products through each stage of the food supply
                         chain. The facilities that handled each of these products were able to
                         provide information about the specific product we purchased or were able
                         to link that product to lot-specific information in their records. These
                         products were three cartons of eggs, a container of yogurt, and a bottle of
                         water. For all three cartons of eggs, the food supply chain included only a
                         retailer and a farm. In contrast, the supply chain for the container of
                         yogurt included four facilities and four farms. The facilities that handled
                         these five products were able to provide us with information that allowed
                         us to trace the path these products took from the farm to the retail shelf.

                         For 31 of the 40 products, we could identify the facilities that likely handled
                         the products
                         As noted earlier, not all facilities are required to maintain lot-specific
                         information in their records, and those that are required to maintain
                         lot-specific information are required to maintain it only if it exists.
                         Therefore, many facilities were not able to provide information that was
                         specific to the products we purchased.

                         For 31 of the 40 products, we were able to identify the facilities that
                         likely handled the products. Most facilities that handled these products
                         did not maintain lot-specific information in their records and could only
                         estimate a range of deliveries (from one or more facilities) that may
                         have included the product we purchased. As a result, we were not able
                         to trace these specific products through each stage of the food supply

                         24 As noted earlier, FDA requires only processors, packers, and manufacturers to maintain
                         lot-specific information in their records to the extent this information exists.



       OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                        9
F   I N D I N G        S

                      chain. In addition, for many of these products, these estimates may
                      have included more facilities than those that actually handled the
                      product or may not have included all of the facilities that handled the
                      product. For example, for one product—a bag of flour—the storage
                      facility did not know the exact farms that contributed to the product
                      and, therefore, had to give us information about every farm that
                      provided wheat during the previous harvest season.

                      If FDA is not able to trace a specific product through each stage of the
                      food supply chain, it may have difficulty identifying the source of
                      contamination or targeting which products need to be removed from
                      retail shelves.
                      For 4 of the 40 products, we could not identify the facilities that likely
                      handled them
                      For four products—a tomato, a bag of ice, a bottle of fruit juice, and a
                      bottle of water—at least one facility in the food supply chain failed to
                      provide any information about the potential sources of the products.
                      This prevented us from tracing these four products through each stage
                      of the food supply chain back to the farm(s) or the border and from
                      identifying all of the facilities that likely handled the products. In a
                      food emergency, there could be serious health consequences if FDA
                      cannot—at a minimum—identify the facilities that potentially handled
                      a contaminated food product.


  Several factors prevented us from tracing the                  Several factors limited our
specific products through the food supply chain                  ability to trace the food products
                                                                 through each stage of the food
                      supply chain. These factors included: (1) processors, packers, and
                      manufacturers not always maintaining lot-specific information, as
                      required; (2) other types of facilities not maintaining lot-specific
                      information because it is not required; (3) retailers receiving products
                      not labeled with lot-specific information; and (4) the mixing of products
                      from a large number of farms. These factors also affect the speed with
                      which FDA can trace products through the food supply chain.
                      Processors, packers, and manufacturers did not always maintain
                      lot-specific information
                      FDA requires processors, packers, and manufacturers to maintain
                      lot-specific information in their records to the extent this information
                      exists. Of the 38 facilities we interviewed that were required to
                      maintain this information, 2 failed to comply.


    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                    10
F   I N D I N G        S

                      These facilities labeled the food product with lot-specific information;
                      however, they did not maintain this information in their records.
                      Further, two additional facilities did not maintain lot-specific
                      information because it did not exist. One of these facilities, an ice
                      manufacturer, did not establish lots that would allow it to distinguish
                      one production batch from another. Although these facilities were in
                      compliance with the records requirements because lot-specific
                      information did not exist, the lack of lot-specific information can limit
                      FDA’s ability to trace a specific product through each stage of the food
                      supply chain.
                      Other types of facilities did not maintain lot-specific information
                      FDA does not require distributors, wholesalers, storage facilities, and
                      retailers to maintain lot-specific information. However, this
                      information could improve FDA’s ability to identify the source of food
                      contamination and help remove specific food products from retail
                      shelves.

                      The distributors, wholesalers, storage facilities, and retailers that we
                      interviewed did not commonly maintain lot-specific information. Of
                      these facilities, 30 of the 44 distributors, wholesalers, and storage
                      facilities and all of the 21 retailers did not maintain lot-specific
                      information in their records.
                      Some retailers received products that were not labeled with lot-specific
                      information
                      Six of the forty food products that we purchased were not labeled with
                      any lot-specific information. The lack of lot-specific information on the
                      packaging can hinder FDA’s ability to trace a specific product through
                      the food supply chain.

                      Three of the six products were unpackaged whole tomatoes. Another
                      three of these products—a package of tomatoes, a bag of lettuce, and a
                      bag of ice—were packaged products. For the packaged tomatoes, as well
                      as two of the unpackaged tomatoes, the processors or packers labeled
                      the cases of the product rather than the individual products available on
                      the retail shelf. None of the six retailers, however, could link the
                      purchased products to any lot-specific information.
                      Facilities sometimes mixed raw food products from a large number of farms
                      The mixing of raw products from a large number of farms, a process
                      that is often called commingling, can also limit FDA’s ability to trace a
                      specific product through the food supply chain.



    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                   11
F   I N D I N G        S

                      Thirty-seven facilities in our traceability exercise received raw food
                      products directly from farms. Of these, 15 facilities mixed raw products
                      from more than 10 farms. 25 These facilities processed flour, juice, milk,
                      and yogurt, and almost half of these facilities mixed raw products from
                      100 or more farms. Because of the large number of farms that
                      contributed to these finished products, FDA may have difficulty
                      identifying the source of food contamination and helping to remove the
                      contaminated products from retail shelves. According to an estimate
                      from a manager at a grain storage facility, if grain from one farm were
                      contaminated, millions of bags of flour would be at risk and might have
                      to be removed from retail shelves.
                      The remaining 22 facilities received raw food products from 10 or fewer
                      farms. Several of these facilities that handled the eggs, leaf vegetables,
                      and tomatoes received information from farms, such as expiration dates,
                      the location of the field where the product was grown, and the date the
                      product was harvested. In these cases, FDA would be able to more
                      easily trace a contaminated food product through the food supply chain.



            Fifty-nine percent of the food facilities     FDA requires certain facilities to
                                                          maintain contact information
                  did not meet FDA’s requirements
                                                          about their sources, recipients,
                    to maintain records about their
                                                          and transporters. 26 This contact
             sources, recipients, and transporters        information helps to identify the
                      source of contamination and remove the products from retail shelves.
                      Fifty-nine percent (70 of 118) of the food facilities in our traceability
                      exercise did not provide all of the required information. Six of the
                      118 facilities did not provide any of the required information. The
                      remaining 64 facilities provided some but not all of the required
                      information.




                      25 The four oatmeal chains are excluded because they ended at the U.S. border before
                      reaching the beginning of the chain.
                      26 FDA requires only certain facilities to meet these requirements. The facilities required
                      to maintain contact information about their sources, recipients, and transporters include
                      those that manufacture, process, pack, transport, distribute, receive, hold, or import food in
                      the United States. See Appendix A for more detailed information about the types of
                      facilities subject to these requirements and the information they are required to maintain.



    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                        12
F   I N D I N G        S

                      Twenty percent of facilities did not provide all of the required contact
                      information about their sources
                      FDA requires certain food facilities to maintain the names, addresses,
                      and telephone numbers of the sources of their food products.
                      Twenty percent (24 of 118) of the facilities in our traceability exercise
                      did not provide all of the required information about their sources. See
                      Figure 2 on the following page for the percentage of facilities that did
                      not provide the different types of required information. Six facilities did
                      not provide any information about their source(s); the remaining
                      18 facilities did not provide some of the required information, such as a
                      complete address or telephone number.
                      The six facilities did not provide any information about their sources for
                      several reasons. One of the facilities, a produce distributor, bought its
                      tomatoes from different vendors and did not maintain any records
                      documenting these purchases. Another facility, an ice manufacturer,
                      was not able to provide the information because it went out of business
                      shortly after we purchased the product. In addition, one water bottler
                      reported that it would be too difficult to provide the information because
                      it did not include lot-specific information in its records. Three other
                      facilities responsible for handling a bottle of juice did not provide any
                      information about their sources or about why they did not provide this
                      information.

                      The facilities that did provide information about their sources may have
                      been able to do so because they typically had only one source.
                      Seventy-two percent of all facilities had only one source for the selected
                      food product. These facilities may not have had to look through large
                      numbers of records or multiple recordkeeping systems to find the
                      information. In several cases, managers noted that they did not have to
                      look at records at all because they knew the one source of the product
                      from memory.




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                  13
 F     I N D I N G         S



              Figure 2:        100%
 Percentage of Food
     Facilities That Did
Not Provide Required            80%
           Information


                                60%
                                                                                       52%
                                                                                                            46%

                                40%


                                                         20%
                                20%



                                  0%
                                                   Did not provide                 Did not provide     Did not provide
                                                     all required                    all required         all required
                                                     information                     information         information
                                                   about sources                   about recipients   about transporters
                                                        N=118                           N=90*               N=118


                           * Excludes retailers.
                           Source: OIG analysis of food facility responses, 2008.



                           Fifty-two percent of facilities did not provide all of the required contact
                           information about their recipients
                           FDA also requires certain food facilities to maintain the names,
                           addresses, and telephone numbers of the recipients of their food
                           products. Fifty-two percent (47 of 90) of the facilities did not provide all
                           of the required information about their recipients. 27 Six facilities did
                           not provide any information about their recipients. These facilities were
                           the same ones that did not provide any information about their sources.

                           The remaining 41 facilities did not provide some of the required
                           information, such as a complete address or telephone number.

                           Facilities may have had difficulty in providing all of the required
                           information about their recipients because they typically had more than
                           one recipient. Specifically, 62 percent of the 90 facilities in our
                           traceability exercise had more than one recipient. In several of these


                           27 FDA does not require retailers to provide information about their recipients if the

                           recipients are consumers. Therefore, this requirement did not apply to the 28 retailers in
                           our traceability exercise. See 21 CFR § 1.327(e).



        OEI-02-06-00210    TRACEABILITY    IN THE   F O O D S U P P LY C H A I N                                           14
        F   I N D I N G        S

                              cases, managers had to look through large numbers of records—some of
                              them paper based—to identify recipients. A number of managers
                              specifically reported that their facilities kept the contact information for
                              recipients in a system separate from the one used to track incoming
                              shipments, making it burdensome to provide the contact information for
                              the selected food products.
                              Forty-six percent of facilities did not provide all of the required contact
                              information about their transporters
                              FDA requires certain food facilities to maintain the names, addresses,
                              and telephone numbers for the transporters of both their incoming and
                              outgoing shipments. Forty-six percent of food facilities (54 of 118) did
                              not provide all of the required information about their transporters.
                              Specifically, 27 facilities did not provide all of the information about
                              their transporters of outgoing shipments, whereas 10 facilities did not
                              provide all of the information about their transporters of incoming
                              shipments. An additional 17 facilities did not provide all of the
                              information about the transporters of either their incoming or outgoing
                              shipments.

                              Facilities had difficulty in providing all of the required information
                              about their transporters for several reasons. Several managers
                              indicated that they did not keep records that identified their
                              transporters when the transportation was arranged by either their
                              source or their recipient. Several other managers reported that they
                              kept the transporter information in a separate recordkeeping system
                              that was not integrated with their system that tracked shipments.
                              Some managers further noted that identifying the transporter
                              associated with a particular incoming or outgoing shipment was very
                              burdensome because they needed to manually search a large number of
                              paper records.
                                                                   Twenty-five percent (26 of 104) of
                One-quarter of the food facilities were            the managers who responded to
     not aware of FDA’s records requirements; others               our questions were not aware of
highlighted practices designed to improve traceability             FDA’s records requirements. 28
                                                                   The percentage of managers who
                              were not aware of the requirements varied by the type of facility. As
                              shown in Figure 3, 50 percent of the managers at retail facilities were
                              not aware of FDA’s records requirements, compared to 21 percent of the


                              28 Of the 118 facilities in our traceability exercise, 104 facilities responded to this question.




            OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                          15
F    I N D I N G        S

                       managers at distributor, wholesale, and storage facilities and 13 percent
                       of the managers at processing, packing, and manufacturing facilities.

           Figure 3:      100%
     Percentage of
     Managers Who
      Reported Not          80%
    Being Aware of
       FDA Records
     Requirements,          60%
    by Facility Type                                                                                               50%


                            40%

                                                                                    21%
                            20%                    13%


                             0%
                                           Processors,                          Distributors,                   Retailers
                                          Packers, and                        Wholesalers, and                   N=26
                                          Manufacturers                       Storage Facilities
                                              N=40                                 N=38
                       Source: OIG analysis of food facility responses, 2008.
                       Note: This information is based on 104 of the 118 facilities that responded to this question.



                       Many facilities reported making changes to their recordkeeping practices to
                       meet FDA’s records requirements
                       Over half of the managers (43 of 78) who were aware of the FDA records
                       requirements reported making changes to their recordkeeping practices
                       to meet these requirements. For example, a number of these managers
                       reported switching from paper-based to electronic recordkeeping
                       systems or reported improving their existing electronic systems.
                       Additionally, eight managers noted that they had developed or
                       improved their facilities’ ability to maintain lot-specific information.
                       One of these managers purchased software to more easily keep track of
                       products, whereas another began recording lot-specific information in a
                       paper-based system.

                       Additionally, several managers reported making other types of changes.
                       For example, eight managers reported making improvements to their
                       transporter records. One manager began photocopying the driver’s
                       licenses of transporters, whereas another added the transporters’ names
                       and addresses to the receipts documenting the delivery of transported
                       products. A few other managers noted that their facilities now




     OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                                 16
F   I N D I N G        S

                      designate a point person to respond to food emergencies or hire a
                      third-party auditor to monitor their recordkeeping systems. A few
                      others noted that they had started to keep their records for a longer
                      period of time.




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                    17
Δ      R E C O M M E N D A T I O N S




                      The traceability of food products and the ability of food facilities to
                      provide information about their sources, recipients, and transporters
                      are essential to ensuring the safety of our Nation’s food supply. In a
                      food emergency, this information allows FDA to identify the source of
                      contamination and help remove unsafe food products from retail
                      shelves.

                      Based on our review, we were able to trace 5 of the 40 specific products
                      we purchased. For 31 of the 40 products, we were able to identify the
                      facilities that likely handled them. For the remaining four products, we
                      could not identify the facilities that likely handled them. Several
                      factors prevented us from tracing the specific products through each
                      stage of the food supply chain. These factors included: (1) processors,
                      packers, and manufacturers not always maintaining lot-specific
                      information, as required; (2) other types of facilities not maintaining
                      lot-specific information because it is not required; (3) retailers receiving
                      products not labeled with lot-specific information; and (4) the mixing of
                      products from a large number of farms.

                      In addition, we found that 59 percent of the food facilities in our
                      traceability exercise did not meet FDA’s requirements to maintain
                      records about their sources, recipients, and transporters. We also found
                      that one-quarter of the food facilities were not aware of FDA’s records
                      requirements, whereas others highlighted practices designed to improve
                      traceability.

                      To address the findings in this report, we recommend that FDA:

                      Seek statutory authority, if necessary, to strengthen existing records
                      requirements regarding lot-specific information
                      FDA should seek statutory authority, if necessary, to require all
                      processors, packers, and manufacturers to create and maintain
                      lot-specific information for food products. FDA should also extend the
                      requirements regarding lot-specific information to other types of
                      facilities, such as distributors, storage facilities, and retailers, in order
                      to further strengthen the traceability of food products.

                      Consider seeking additional statutory authority to improve traceability
                      FDA should consider seeking additional statutory authority requiring
                      food facilities to further strengthen the traceability of food products.




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                      18
R   E C O        M M E N D A T                 I O N              S

                      FDA should consider a variety of different approaches, such as
                      expanding current requirements stipulating that facilities maintain
                      information only for their immediate sources, recipients, and
                      transporters. FDA may instead require each facility that handles a food
                      product to maintain records about every facility or farm that handled
                      the product, along with the relevant lot-specific information. This may
                      allow FDA to more quickly and accurately trace food products during a
                      food emergency. In addition, FDA should consider requiring facilities to
                      use certain information technologies to help facilitate recordkeeping,
                      such as interoperable recordkeeping systems. These interoperable
                      systems, which would allow for information to be exchanged among all
                      facilities in the food supply chain, may also allow FDA to more quickly
                      and accurately trace food products during a food emergency.

                      Work with the food industry to develop additional guidance to
                      strengthen traceability
                      FDA should work with the food industry to develop additional guidance
                      on traceability. Among other things, this guidance could encourage
                      facilities to assign a point person to be responsible for responding to
                      food emergencies, conduct mock recalls, and contract with independent
                      third-party auditors to monitor recordkeeping systems.

                      Address issues related to mixing raw food products from a large
                      number of farms
                      FDA should work with the food industry to develop standards for
                      mixing raw food products from a large number of farms. This would
                      address a serious vulnerability in the traceability of the food supply
                      chain.
                      Seek statutory authority to conduct activities to ensure that facilities
                      are complying with its records requirements
                      FDA should seek statutory authority to request facilities’ records at any
                      time, as opposed to its current authority to request records only when
                      FDA has a reasonable belief that an article of food presents a serious
                      health threat. FDA should use this authority to conduct traceability
                      exercises or other checks on facilities to ensure that they are complying
                      with its records requirements. With this added authority, FDA would
                      be able to include a component in its food facility inspections to verify as
                      a matter of course whether facilities are complying with its records
                      requirements.




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                     19
R   E C O        M M E N D A T                 I O N              S

                      Conduct education and outreach activities to inform the food industry
                      about its records requirements
                      FDA should develop education activities that focus on appropriate and
                      reliable recordkeeping systems. These activities could include
                      informational meetings, mailings, and other initiatives. FDA should
                      use these efforts to clearly explain the specific types of information that
                      must be maintained, such as transporter contact information. FDA
                      should also target outreach efforts to facilities that have less familiarity
                      with the records requirements, namely retailers, distributors,
                      wholesalers, and storage facilities.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      FDA stated that it will consider our recommendations regarding
                      seeking enhanced statutory authority, and it described its efforts in
                      response to our recommendations to work with the food industry and to
                      conduct education and outreach. FDA did not specifically state whether
                      it concurred with these latter two recommendations.

                      FDA stated that it will consider our three recommendations to seek
                      additional statutory authority to (1) strengthen existing records
                      requirements, (2) improve traceability, and (3) ensure that facilities are
                      complying with records requirements, as well as our recommendation to
                      address issues relating to mixing raw food products. FDA noted that it
                      continues to work closely with its food safety partners to strengthen its
                      ability to protect Americans from foodborne illness, which includes
                      determining whether additional statutory authority is needed to ensure
                      that it has the requisite tools to better protect public health.

                      In response to our recommendation to work with the food industry, FDA
                      stated it is continuing to work with the food industry and other
                      stakeholders to develop additional guidance to strengthen traceability.
                      FDA noted that it is meeting with the food and feed industry and
                      technology firms to better understand industry product tracing
                      activities and technologies. FDA also stated that it has held two public
                      meetings to stimulate discussions on enhancing product tracing
                      systems, and has recently awarded a contract for a study on traceability
                      in food systems. FDA also noted its plan to host a workshop to review
                      the results of a traceability study being conducted by the European
                      Union, which will allow FDA to learn from the findings and incorporate
                      them into its decisionmaking.


    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                    20
R   E C O        M M E N D A T                 I O N              S

                      In response to our recommendation to conduct education and outreach
                      activities, FDA stated that it is the responsibility of those providing food
                      for American consumers to be aware of and comply with all laws and
                      regulations that apply to their activities. FDA further noted that it had
                      conducted extensive outreach activities in 2005 and had continued to
                      provide assistance to the industry by developing a series of Question
                      and Answer guidance documents, and that it will continue to work with
                      industry and trade association groups to communicate the requirements
                      of the rule to stakeholders.

                      We support FDA’s ongoing efforts to improve the traceability of the food
                      supply and to ensure that it has the tools needed to better protect the
                      public health in the event of a food emergency. We ask that, in its final
                      management decision, FDA more clearly indicate whether it concurs
                      with our recommendations to work with the food industry and to
                      conduct education and outreach.

                      For the full text of FDA’s comments, see Appendix C.




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                   21
R   E C O        M M E N D A T                 I O N              S
Δ       A P P E N D I X ~ A
                      The Establishment and Maintenance of Records Regulations
                      Title 21 of the Code of Federal Regulations, Part 1, Subpart J, describes
                      the specific information to be maintained under the Maintenance and
                      Inspection of Records provision of the Public Health Security and
                      Bioterrorism Preparedness and Response Act of 2002 for all persons,
                      except transporters, who are subject to the Federal recordkeeping
                      requirements. A person includes an individual, a partnership, a
                      corporation, and an association (21 CFR § 1.328). Pursuant to
                      21 CFR § 1.337, facilities must establish and maintain the following
                      records for food they receive:
                      •   “The name of the firm, address, telephone number and, if
                          available, the fax number and e-mail address of the
                          nontransporter immediate previous source, whether domestic or
                          foreign;
                      •   “An adequate description of the type of food received, to include
                          brand name and specific variety (e.g., brand x cheddar cheese, not
                          just cheese; or romaine lettuce, not just lettuce);
                      •   “The date you received the food;

                      •   “For persons who manufacture, process, or pack food, the lot or
                          code number or other identifier of the food (to the extent this
                          information exists);
                      •   “The quantity and how the food is packaged (e.g., 6-count bunches,
                          25-pound (lb) carton, 12-ounce (oz) bottle, 100-gallon (gal) tank);
                          and
                      •   “The name of the firm, address, telephone number, and, if
                          available, the fax number and e-mail address of the transporter
                          immediate previous source (the transporter who transported the
                          food to you).”

                      Additionally, pursuant to 21 CFR § 1.345, facilities must establish
                      and maintain the following records for food they release:
                      •   “The name of the firm, address, telephone number, and, if
                          available, the fax number and e-mail address of the
                          nontransporter immediate subsequent recipient, whether
                          domestic or foreign;
                      •   “An adequate description of the type of food released, to include
                          brand name and specific variety (e.g., brand x cheddar cheese, not
                          just cheese; or romaine lettuce, not just lettuce);


    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                  22
A   P   P E N D       I X ~     A

                      •   “The date you released the food;

                      •   “For persons who manufacture, process, or pack food, the lot or
                          code number or other identifier of the food (to the extent this
                          information exists);
                      •   “The quantity and how the food is packaged (e.g., 6-count bunches,
                          25-lb carton, 12-oz bottle, 100-gal tank);
                      •   “The name of the firm, address, telephone number, and, if
                          available, the fax number and e-mail address of the transporter
                          immediate subsequent recipient (the transporter who transported
                          the food from you ); and
                      •   “Your records must include information reasonably available to
                          you to identify the specific source of each ingredient used to make
                          every lot of finished product.”




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                  23
Δ     A P P E N D I X ~ B


                  Selection of Retail Facilities
                  We purchased 10 products in four areas based on the U.S. Census
                  Bureau’s Metropolitan Statistical Areas (MSA). In each MSA, we
                  purchased 10 food products, each from a different retail facility, for a
                  total of 40 food products. We selected retail facilities in the two
                  ZIP Codes with populations closest to the median population, or, if
                  necessary, in a bordering ZIP Code. We purchased different brand
                  names for each of the 40 products and, when possible, we selected lesser
                  known brands. See Table 1for a list of the MSAs and the targeted ZIP
                  Codes.


                    Table 1: MSAs in Our Traceability Exercise

                    MSA                                            ZIP Code         County          State     Population
                    New York-Northern New                                07059     Somerset    New Jersey     14,219
                    Jersey-Long Island, New
                    York-New Jersey-
                    Pennsylvania                                         07001    Middlesex    New Jersey     14,188

                    Washington-Arlington-                                20851   Montgomery      Maryland     13,038
                    Alexandria, Washington, DC-
                    Virginia-Maryland                                    20187     Fauquier       Virginia    12,886

                                                                         60093        Cook         Illinois   19,528
                    Chicago-Naperville-Joliet,
                    Illinois-Indiana-Wisconsin
                                                                         60448          Will       Illinois   19,476

                                                                         94947        Marin     California    24,724
                    San Francisco-Oakland-
                    Fremont, California
                                                                         94608     Alameda      California    24,572

                  Source: U.S. Census Bureau, 2000.




OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                                              24
Δ   A P P E N D I X ~ C


Agency Comments




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N   25
A   P   P E N D       I X      ~         C




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N   26
A   P   P E N D       I X      ~         C




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N   27
A   P   P E N D       I X      ~         C




    OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N   28
Δ   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the
                  New York regional office, and Meridith Seife, Deputy Regional Inspector
                  General.

                  Vincent Greiber served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the New York
                  regional office who contributed to the report include Judy Bartlett and
                  Lucia Fort; other central office staff who contributed include
                  Ayana Everett, Robert Gibbons, Talisha Searcy, and Sandy Khoury.




OEI-02-06-00210   TRACEABILITY   IN THE   F O O D S U P P LY C H A I N                29
